         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Briefing Report




       Steps Needed to Prevent
       Prior Control Weaknesses From
       Affecting New Acquisition System
       Report No. 10-P-0160

       June 28, 2010
Abbreviations

COOP        Continuity of Operations Plan
EAS         EPA Acquisition System
EPA         U.S. Environmental Protection Agency
FAR         Federal Acquisition Regulation
FIPS        Federal Information Processing Standards
ICMS        Integrated Contracts Management System
ITSC        Information Technology Service Center
NIST SP     National Institute of Standards and Technology, Special Publication
OAM         Office of Acquisition Management
OIG         Office of Inspector General
OMB         Office of Management and Budget
                       U.S. Environmental Protection Agency                                                 10-P-0160
                                                                                                         June 28, 2010
                       Office of Inspector General


                       At a Glance
                                                                            Catalyst for Improving the Environment

Why We Did This Review             Steps Needed to Prevent Prior Control Weaknesses
We sought to determine to
                                   From Affecting New Acquisition System
what extent the U.S.
                                    What Williams, Adley & Company, LLP, Found
Environmental Protection
Agency (EPA) took steps to
                                   Stronger system controls over ICMS need to be addressed prior to transitioning to
prevent system control
                                   the new EAS. Williams, Adley & Company, LLP, noted that:
weaknesses in its current
acquisition system from
                                       •   System reporting does not always accurately associate a procurement
impacting the new
                                           action with the correct user who initiated the action.
replacement system.
The Office of Inspector                •   ICMS does not have an audit log to capture and allow monitoring of
General contracted with                    security events.
Williams, Adley & Company,             •   No formal ICMS user training exists.
LLP, to conduct this review.           •   The ICMS Continuity of Operations Plan and system backup procedures
                                           are not compliant with federal requirements.
Background                             •   ICMS generates procurement documents in a format such that changes to
                                           the procurement documents can be made outside of the ICMS processing
The Integrated Contracts                   environment.
Management System (ICMS)
supports the procurement           While it may not be practical for EPA to address these weaknesses within ICMS,
needs of EPA offices. ICMS         EPA should take proactive steps to strengthen its system controls so these similar
generates documents critical       weaknesses do not exist in EAS.
to the procurement process
and recorded contract values        What Williams, Adley & Company, LLP, Recommends
totaling approximately
$17.5 billion for Fiscal Year
                                   Williams, Adley & Company, LLP, recommends that the Director, Office of
2008. EPA is replacing ICMS
with a new system called the       Acquisition Management:
EPA Acquisition System
(EAS).                                •    Modify EAS reporting to associate procurements with the correct user
                                           who initiated the action.
                                      •    Implement EAS security logging; develop and implement a formal process
                                           for storing, reviewing, and reporting violations recorded in security logs.
                                      •    Continue EAS Contracting Officer training and Getting Started training
For further information, contact           for EAS users prior to obtaining system access.
our Office of Congressional,          •    Ensure the EAS contingency site is remote from the primary hosting site.
Public Affairs and Management
at (202) 566-2391.                    •    Implement system controls, such as proper tracking and version control of
                                           procurement documents, to prevent a user from altering procurement
To view the full report,                   documents outside of the EAS environment.
click on the following link:
www.epa.gov/oig/reports/2010/      On June 9, 2010, we met with EPA officials to discuss this briefing. Appendix A
20100628-10-P-0160.pdf
                                   contains EPA’s response to the findings.
               UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            WASHINGTON, D.C. 20460


                                                                             OFFICE OF
                                                                        INSPECTOR GENERAL



                                       June 28, 2010

MEMORANDUM

SUBJECT:       Steps Needed to Prevent Prior Control Weaknesses From Affecting
               New Acquisition System
               Report No. 10-P-0160


FROM:          Rudolph M. Brevard
               Director, Information Resources Management Assessments
               Office of Inspector General

TO:            John R. Bashista, Director
               Office of Acquisition Management
               Office of Administration and Resources Management

Attached is the briefing report on the subject audit conducted by Williams, Adley
& Company, LLP (Williams Adley), on behalf of the Office of Inspector General
(OIG) of the U.S. Environmental Protection Agency (EPA). This report contains
findings that describe the problems Williams Adley identified and corrective
actions recommended. This report represents the conclusions of Williams Adley
and does not necessarily represent the final EPA position. Final determinations
on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost for performing this audit, which includes contract costs and OIG
contract management oversight, is $199,174.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written
response to this report within 90 calendar days. You should include a corrective
actions plan for agreed-upon actions, including milestone dates. We have no
objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at
(202) 566-0893 or brevard.rudy@epa.gov; or Harry Kaplan, Project Manager, at
(202) 566-0898 or kaplan.harry@epa.gov.

Attachment
Steps Needed To Prevent Prior
Control Weaknesses From Affecting
New Acquisition System



        Results of Review



               10-P-0160            1
Audit Methodology

   Documented the information flows and system controls over the Integrated
    Contract Management System (ICMS).

   Identified five control weaknesses during the documentation phase.

   Issued audit findings and recommendations based on the control
    weaknesses identified during this review.




                                     10-P-0160                                 2
Office of Acquisition Management (OAM) Datamart
and Orbit Reporting Require Improvement

Finding 1
   OAM Datamart Reports do not always accurately associate a procurement action
    performed in ICMS with the correct ICMS user who initiated the action.

   OAM Datamart and Orbit Reports currently do not have the ability to display data
    below the Division level, which requires Service Center managers to manually
    manipulate reports to see data for their Service Center.

   Access to ad-hoc reporting capability within the OAM Datamart has not been
    granted to all Service Center managers.




                                      10-P-0160                                        3
OIG Recommendations
Director, Office of Acquisition Management, should:

1-1 Modify the EPA Acquisition System (EAS) reporting to associate procurements with
    the correct user who initiated the action.


1-2 Modify EAS so the system creates reports at the individual Service Center level.


1-3 Grant Service Center managers access to EAS ad hoc reporting.




                                        10-P-0160                                      4
EPA’s Response to the Finding

All three specific conditions will be remedied through implementing EAS which will
include reporting that provides the correct Contracting Officer for an action, ability to
report to the service center level, and a more user friendly ad-hoc reporting system for
the customer base.




                                           10-P-0160                                        5
Audit log functionality needs improvement

Finding 2
ICMS does not have an audit log functionality to capture and monitor security events.




                                         10-P-0160                                      6
OIG Recommendations

Director, Office of Acquisition Management, should:

2-1 Implement EAS security logging. Develop and implement a formal process for
    storing, reviewing, and reporting violations recorded in the security logs.




                                      10-P-0160                                   7
 EPA’s Response to the Finding

OAM agrees with this condition, which will be remedied through implementing EAS. EAS
provides auditing capabilities.




                                        10-P-0160                                      8
Formal ICMS User Training Program

Finding 3
Formal ICMS User Training was discontinued and replaced with a mentoring program in
2003 due to resource constraints.




                                       10-P-0160                                      9
Formal ICMS User Training Program

   Contracting Officers will be required to take a 4-day training class to gain access to
    the EAS. All other users will have to complete the “Getting Started” module.




                                         10-P-0160                                       10
OIG Recommendations

Director, Office of Acquisition Management, should:

3-1 Continue EAS Contractor Officer training and Getting Started training for remaining
    EAS users as a prerequisite for obtaining access to EAS.

3-2 Create and implement an EAS access policy requiring the EAS System
    Administrator to verify training attendance prior to granting a new user access to the
    application.

3-3 Retain documented evidence of each user’s training attendance, through a sign-in
    sheet or other time-stamped means, to enforce compliance with the EAS access
    policy.




                                         10-P-0160                                      11
EPA’s Response to Finding

OAM will be providing full-system training to EAS customers. Users will not be provided
access to EAS without having taken, at a minimum, the “Getting Started” module for
requisitioners. Once EAS is deployed, it will be feasible to have Contracting Officer (CO)
classes frequently enough to ensure the new COs are able to work efficiently as soon as
they arrive. OAM will also be hosting webinars and user-group meetings to provide COs
with refresher training and training on new functionality.




                                          10-P-0160                                      12
ICMS Continuity of Operations Plan (COOP) and System
Backup Procedures not in compliance with National Institute
of Standards and Technology (NIST) guidance

Finding 4
   The ICMS production servers are hosted in Arlington, VA and the contingency site
    and tape storage facility in Washington, DC are geographically close in proximity.

   Aside from the servers at Potomac Yards, no backup servers exist for ICMS at the
    contingency site.

   No backup tapes existed for the Oracle database server that supports ICMS.

   OAM COOP has never been fully tested.




                                       10-P-0160                                         13
OIG Recommendations

Director, Office of Acquisition Management, should:

4-1 Implement an EAS contingency remote site separate from the primary hosting site.

4-2 Develop a mirror environment at EPA’s Research Triangle Park (RTP) Campus in
    North Carolina or other designated site to assist the contingency facility in
    supporting system operations.

4-3 Test the EAS COOP after EAS implementation to verify compliance with federal and
    EPA guidance.




                                       10-P-0160                                       14
EPA’s Response to Finding
   OAM’s disaster recovery location in RTP, North Carolina, will remedy the close
    proximity of the production and contingency sites.

   OAM has had other disruptions with ICMS service and has been successful in
    bringing the system back up quickly and expediently. The single site is a critical risk
    component which OAM is mitigating through adding a mirrored disaster recovery
    site in RTP.

   OAM now has in place incremental backups as well as full tape backups for the
    oracle database server that supports the ICMS application.




                                         10-P-0160                                        15
Draft and Final Contracts Version Control
Finding 5
   ICMS generates procurement documents in WordPerfect and stores them in
    PCDOCs, a document management system. These documents can then be saved
    by the users to their hard drive, thus allowing them to make changes to the
    procurement document outside of ICMS. The modifications, if done outside the
    system, will not be available in ICMS for management or reporting.

   Contract Specialists and Contract Officers may utilize various file types such as
    Microsoft Excel for procurement documents; however ICMS does not allow the
    upload of any file types other than WordPerfect and Lotus 1-2-3 for incorporation into
    a contract. PCDOCs can store any type of document.




                                         10-P-0160                                      16
OIG Recommendations
Director, Office of Acquisition Management, should:

5-1 Implement system controls, such as proper tracking and version control of
    procurement documents, to prevent users from altering procurement documents
    outside of the EAS environment.


5-2 Implement EAS functionality to upload various file types, such as Microsoft Word
    and Excel, to the system to ensure EAS is able to retain all documents associated
    with procurement.




                                        10-P-0160                                       17
                                                                                                                                     10-P-0160



                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                                POTENTIAL MONETARY
                                                RECOMMENDATIONS                                                                  BENEFITS (in $000s)

                                                                                                                   Planned
Rec.   Page                                                                                                       Completion   Claimed    Agreed To
No.     No.                          Subject                          Status1          Action Official               Date      Amount      Amount

1-1     4     Modify EAS reporting to associate procurements            O       Director, Office of Acquisition
              with the correct user who initiated the action.                      Management, Office of
                                                                                     Administration and
                                                                                  Resources Management

1-2     4     Modify EAS so the system creates reports at the           O       Director, Office of Acquisition
              individual Service Center level.                                     Management, Office of
                                                                                     Administration and
                                                                                  Resources Management

1-3     4     Grant Service Center managers access to EAS ad            O       Director, Office of Acquisition
              hoc reporting.                                                       Management, Office of
                                                                                     Administration and
                                                                                  Resources Management

2-1     7     Implement EAS security logging. Develop and               O       Director, Office of Acquisition
              implement a formal process for storing, reviewing,                   Management, Office of
              and reporting violations recorded in the security                      Administration and
              logs.                                                               Resources Management


3-1     11    Continue EAS Contractor Officer training and              O       Director, Office of Acquisition
              Getting Started training for remaining EAS users                     Management, Office of
              as a prerequisite for obtaining access to EAS.                         Administration and
                                                                                  Resources Management

3-2     11    Create and implement an EAS access policy                 O       Director, Office of Acquisition
              requiring the EAS System Administrator to verify                     Management, Office of
              training attendance prior to granting a new user                       Administration and
              access to the application.                                          Resources Management

3-3     11    Retain documented evidence of each user’s                 O       Director, Office of Acquisition
              training attendance, through a sign-in sheet or                      Management, Office of
              other time-stamped means, to enforce compliance                        Administration and
              with the EAS access policy.                                         Resources Management

4-1     14    Implement an EAS contingency remote site                  O       Director, Office of Acquisition
              separate from the primary hosting site.                              Management, Office of
                                                                                     Administration and
                                                                                  Resources Management

4-2     14    Develop a mirror environment at EPA’s Research            O       Director, Office of Acquisition
              Triangle Park Campus in North Carolina or other                      Management, Office of
              designated site to assist the contingency facility in                  Administration and
              supporting system operations.                                       Resources Management

4-3     14    Test the EAS COOP after EAS implementation to             O       Director, Office of Acquisition
              verify compliance with federal and EPA guidance.                     Management, Office of
                                                                                     Administration and
                                                                                  Resources Management




                                                                            18
                                                                                                                                  10-P-0160


                                                                                                                             POTENTIAL MONETARY
                                              RECOMMENDATIONS                                                                 BENEFITS (in $000s)

                                                                                                                Planned
Rec.   Page                                                                                                    Completion   Claimed    Agreed To
No.     No.                        Subject                         Status1          Action Official               Date      Amount      Amount

5-1     17    Implement system controls, such as proper              O       Director, Office of Acquisition
              tracking and version control of procurement                       Management, Office of
              documents, to prevent users from altering                           Administration and
              procurement documents outside of the EAS                         Resources Management
              environment.

5-2     17    Implement EAS functionality to upload various file     O       Director, Office of Acquisition
              types, such as Microsoft Word and Excel, to the                   Management, Office of
              system to ensure EAS is able to retain all                          Administration and
              documents associated with procurement.                           Resources Management




                                                                         19
                                                                                           10-P-0160


                                                                                      Appendix A

                                 Agency Response
                                        November 19, 2009


MEMORANDUM

SUBJECT:       Response to Office of Inspector General (OIG) Finding Outline for Quality of
               Data in the U.S. Environmental Protection Agency’s Integrated Contracts
               Management System (ICMS)

FROM:          John C. Gherardini III, Acting Director
               Office of Acquisition Management

TO:            Rudolph M. Brevard, Director
               Director, Information Resources Management Assessments
               Office of Inspector General


We appreciate the opportunity to review and provide comments to this report.


Finding Number: 1 - OAM Datamart and Orbit Reporting Improvements.

OAM agrees with specific condition 2.

In regards to condition 1, we would like to clarify that in our assessment, it is sometimes more
important to know who signed the document (i.e. the Contracting Officer (CO)), and thus why
we use MANAGEMENT ROLES so the Contract Specialist (CS) can generate and the CO can
sign. Both the CS and CO are identified in MANAGEMENT ROLES. It is true that they are
sometimes not updated which makes the data unreliable.

Also, the Access Control List would not be able to function in the manner identified for
rectifying reporting issues. It is a function of the application that only identifies who is allowed
to open and generate actions in ICMS on a contract and/or Task Order. It does not keep track of
who initiated an action. Although not thru reporting, we are able to determine who initially
generated an action (and everyone who subsequently accessed, edited, or printed the action)
through DOCs History audit/tracking functionality.

OAM is in disagreement with specific condition 3, which states, “Many OAM Service Center
Managers do not have access to run ad hoc reports from the OAM Datamart or Orbit”. Although
many OAM Service Center Managers do not have access to run ad hoc reports, it is only in the
OAM data mart that this access has been limited. The complexity of the two systems (ICMS and
SPEDI) and the numerous data fields made it very difficult for managers to create useable


                                                 20
                                                                                          10-P-0160


reports without help. We found it more appropriate to build reports for the managers and limit
the ad-hoc reporting capability. Orbit, on the other hand, is not within OAM’s control and our
understanding is that anyone can gain access to ad-hoc reporting via a request to OCFO. We
recommend changing the wording to “Access to ad hoc reporting capability within the OAM
Data mart has not been granted to all Service Center Managers”.

All three specific conditions will be remedied through the implementation of EAS which will
include reporting that provides the correct Contracting Officer for an action, ability to report to
the service center level and a more user friendly ad-hoc reporting system for the customer base.


Finding Number 2 – ICMS Audit Log Functionality Improvements

OAM is in agreement with Condition 1. Although we track and monitor access to our network
infrastructure and the OAM environment as a whole and users are provided with specific IDs for
ICMS and associated access, we do not have the capability to access inappropriate login attempts
to ICMS specifically. Although users will not gain access, we are not able to identify those
attempts to gain access to ICMS. However, this condition will be remedied via EAS as the
software does provide auditing capabilities.


Finding Number 3 – Formal ICMS User Training Program

OAM is in agreement that the ICMS training was replaced with mentoring due to resource
constraints. In regards to EAS, we will be providing EAS training to EAS customers. This
training is not “upgrade” training but full system training. Although the training is not
mandatory, users will not be provided access to EAS without having taken, at a minimum, the
“Getting Started” module for requisitioners. Contracting Officers (CO) will have to take the 4
day class to gain access. Once EAS is deployed, it will be feasible to have Contracting Officer
classes frequently enough to ensure the CO is able to work efficiently as soon as they arrive. In
those cases where a class is not scheduled for the day a CO is scheduled to take the class, their
manager will need to assign them a mentor and it will be required that the Contracting Officer
attend the next available class. We will also be providing webinars and having user-group
meetings to provide Contracting Officers with refresher training and training on new
functionality.

In addition, we feel that there may be some confusion between data migration trial training and
the EAS training itself. The EAS data migration trial training does concentrate on the reviewing
of data coming into the EAS system from ICMS. The EAS training itself will deal with the
functionality of EAS to include the creation of new contracts, importance of clean data by using
drop down lists, etc. They are two separate training classes.




                                                 21
                                                                                       10-P-0160




Finding Number 4 – ICMS Continuity of Operations Plan (COOP) and System Backup
Procedures are not compliant with National Institute of Standards and Technology (NIST)
Guidance

OAM is in agreement with specific condition 1, which states, “The ICMS production servers are
hosted in Arlington, VA and the contingency site and tape storage facility in Washington, DC are
geographically close in proximity.” This will be remedied with the implementation of our
disaster recovery site in RTP, North Carolina.

In regards to specific condition 2, which states, “Aside from the servers at Potomac Yards, no
backup servers exist for ICMS at the contingency site.” We would like to suggest the wording
be clarified to read:

   •   No backup servers exist for ICMS aside from the servers in Potomac Yards. Should a
       continuity event render Potomac Yards unavailable, OAM would not have equipment
       available to restore ICMS to service.

In regards to the specific instances identified under condition 3, which states, “No backup tapes
existed for the Oracle database server that supports the ICMS.” When the audit began, this was a
correct finding but has since been remedied. We now have in place incremental backups as well
as full tape backups for the oracle database server that supports the ICMS application.

In regards to specific condition 4, which states, “4) The Office of Acquisition Management
(OAM) COOP has never been fully tested.” We would like to suggest the wording be clarified
to read:

   •   The Office of Acquisition Management (OAM) COOP, which addresses the scenario of a
       continuity event rendering Potomac Yards unavailable, has never been fully tested.
We have had other disruptions with ICMS service and have been successful in bringing the
system back up quickly and expediently. The virtualized environment that we have in place, in
conjunction with RAID level 5 technologies, allows us to quickly respond to problems in the
infrastructure. The single site is a critical risk component which we are mitigating thru the
addition of a mirrored disaster recovery site in RTP.


Finding Number 5 – Draft and final contracts version control issues

OAM agrees to the specific conditions in general but feel they are inaccurate as stated. The
application, PCDOCs, is a storage utility for documents and is misrepresented as functionality
only used by ICMS. Below is a more accurate re-statement of the issues.

   •   ICMS generates procurement documents in WordPerfect and stores them in PCDOCs, a
       document management system. These documents can then be saved by the users to their
       hard drive, thus allowing them to make changes to the procurement document outside of



                                               22
                                                                                       10-P-0160


       ICMS. The modifications, if done outside the system, will not be available in ICMS for
       management or reporting.

   •   Contract Specialists and Contract Officers may utilize various file types such as
       Microsoft Excel for procurement documents; however ICMS does not allow the upload
       of any file types other than WordPerfect and Lotus 1-2-3 for incorporation into a
       contract. PCDOCs can store any type of document.
Also in reference to the status information, please note that EAS will have all active contract
documents verified during deployment but not closed contracts. Inactive contracts would still be
verified as they are needed for actions in the future but it may be after a Contracting Office
deploys.




                                               23
                                                                                 10-P-0160


                                                                             Appendix B

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Affairs
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Acquisition Management,
       Office of Administration and Resources Management
Inspector General




                                            24
